NO. _______________
IN THE
SUPREME COURT OF THE UNITED STATES
OF AMERICA
LEONARD GRIFFIN
Petitioner-Defendant
v.
UNITED STATES OF AMERICA
Respondent
On Petition for Writ of Certiorari from the
United States Court of Appeals for the Fifth Circuit.
Fifth Circuit Case No. 20-60876
MOTION FOR LEAVE TO PROCEED
IN FORMA PAUPERIS
Pursuant to Rule 39 and 18 U.S.C. ยง 3006A(d)(6), Petitioner Leonard Griffin
requests leave to file the accompanying Petition for Writ of Certiorari from the
United States Court of Appeals for the Fifth Circuit without prepayment of costs
and to proceed in forma pauperis. Petitioner was represented by counsel appointed
under the Criminal Justice Act, 18 U.S.C. ยง 3006A (b) and (c), in the United States
District Court for the Southern District of Mississippi and on appeal to the United
States Court of Appeals for the Fifth Circuit.
1

